                                                                 Issue Date
                                                                        June 1, 2012
                                                                 Audit Report Number
                                                                        2012-AT-1012




TO:         Michael A Williams, Director, Greensboro, NC, Office of Public Housing, 4FPH

            //signed//
FROM:       James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The Housing Authority of the City of Hickory, NC, Mismanaged Some of Its
          HUD Funds


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the public housing program of the Housing Authority of the City of
             Hickory, NC, due to a citizen’s hotline complaint. Our objectives were to
             evaluate the merits of the complaint allegations and determine whether the
             Authority complied with U.S. Department of Housing and Urban Development
             (HUD) requirements for procurement, cash disbursements, a 2004 Resident
             Opportunity and Self-Sufficiency (ROSS) grant, and inventory control.

 What We Found


             The Authority failed to administer some of its HUD funds in accordance with
             requirements. It awarded contracts to family members, disbursed funds for
             ineligible purchases, failed to comply with the financial requirements of its ROSS
             grant, and failed to maintain an adequate inventory system. These deficiencies
             generally occurred because management failed to maintain adequate internal
             controls.
           The Authority awarded four contracts to family members in violation of conflict-
           of-interest requirements. This violation occurred because the Authority’s board
           and executive director failed to follow provisions of its consolidated annual
           contributions contract and procurement policy prohibiting contracting with family
           members. As a result, the Authority expended $522,125 for ineligible contracts
           and risked losing the public’s confidence in the integrity of its operations.

           The Authority lacked adequate controls over its cash disbursements. It
           improperly charged expenses to its Public Housing Capital Fund program and
           could not support compliance with its procurement policy for some
           disbursements. These deficiencies occurred because the Authority did not have
           sufficient written procedures and its staff was not fully aware of some program
           requirements. As a result, the Authority expended $8,881 for ineligible purposes
           and $10,811 for unsupported purchases.

           The Authority also mismanaged its ROSS program established to help residents
           gain economic sufficiency and failed to maintain an adequate inventory control
           system. As a result, it could not assure HUD that it used $69,823 for eligible
           ROSS grant expenses, or that funds it expended for equipment and supplies were
           properly used for Authority activities.

What We Recommend


           We recommend that the Director of the Greensboro Office of Public Housing
           require the Authority to (1) reimburse its public housing operating fund $522,125
           using non-Federal funds for conflict-of-interest contracts; (2) provide assurance that
           its board and management understand their roles and responsibilities regarding real
           or apparent conflicts of interest; (3) develop, implement, and enforce adequate
           written procedures for its cash disbursement function and ensure that responsible
           staff is trained; (4) require the Authority to provide support showing that $69,823 in
           ROSS grant funds was used for eligible grant expenses and repay any grant funds
           determined to be ineligible; and (5) develop and implement an improved inventory
           control system.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the findings with Authority officials during the audit. We provided
           a copy of the draft report to the Authority on April 9, 2012, for its comments and
           discussed the report with Authority officials at an exit conference on April 18,

                                             2
2012. The Authority provided its written comments to our draft report on April
30, 2012. The Authority generally agreed with the contents of the report.

The complete text of the Authority’s response, along with our evaluation of that
response, can be found in appendix B of this report.




                                 3
                           TABLE OF CONTENTS

Background and Objectives                                                              5

Results of Audit
      Finding 1: The Authority Violated Conflict-of-Interest Requirements              6
      Finding 2: The Authority Lacked Adequate Controls Over Its Cash Disbursements    8
      Finding 3: The Authority Mismanaged Its ROSS Program                            10
      Finding 4: The Authority Failed To Maintain an Adequate Inventory Control       12
      System

Scope and Methodology                                                                 14


Internal Controls                                                                     16

Appendixes
   A. Schedule of Questioned Costs                                                    18
   B. Auditee Comments and OIG’s Evaluation                                           19




                                            4
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Hickory was established in 1966 pursuant to the Housing
Authorities Law of the State of North Carolina to address a severe shortage of decent, safe, and
sanitary housing that could be afforded by persons of moderate income. The Authority’s
governing body is a seven-member board of commissioners appointed by the mayor. An
executive director is responsible for daily operations.

The Authority manages 311 conventional low-income public housing units and 449 Housing
Choice Voucher program units. It has implemented project based budgeting and accounting
under HUD’s asset management program. The Authority annually receives funds from the U.S.
Department of Housing and Urban Development (HUD) to operate its programs and maintain its
housing stock. It also received a $250,000 Resident Opportunity and Self-Sufficiency (ROSS)
grant during 2004, which was still active during our audit period. The grant was designed to
provide expanded educational opportunities, job training, technology training and access, and
other programs to help public housing residents achieve self-sufficiency.

We performed the review after we received an anonymous citizen hotline complaint containing
many allegations, including questionable payments to individuals and vendors, personal use of
Authority vehicles and credit cards, inappropriate transfers of funds between Authority accounts,
conflicts of interest and nepotism, excessive maintenance purchases, and falsification of
maintenance work orders. Review of the complaint is detailed in the Scope and Methodology
section.

Our objectives were to evaluate the merits of the complaint allegations and determine whether
the Authority complied with U.S. Department of Housing and Urban Development (HUD)
requirements for procurement, cash disbursements, a 2004 ROSS grant, and inventory control.




                                                5
                                      RESULTS OF AUDIT

Finding 1: The Authority Violated Conflict-of-Interest Requirements
The Authority awarded contracts to family members in violation of conflict-of-interest
requirements. This violation occurred because the Authority’s board and executive director
failed to follow provisions of its consolidated annual contributions contract1 and its procurement
policy prohibiting contracts with family members. As a result, the Authority expended $522,125
for the ineligible contracts and risked losing the public’s confidence in the integrity of its
operations.


    The Authority Awarded
    Contracts to Family Members


                 We reviewed 12 procurement actions valued at $1.57 million out of a universe of
                 45 procurements valued at $2.1 million executed during our audit period. With
                 the exception of those actions discussed in finding 2, most contracts appeared to
                 have been properly procured or contained only minor deficiencies. However, the
                 Authority awarded three contracts to a board member’s brother and obtained
                 services from the executive director’s husband in violation of the conflict-of-
                 interest provisions in its consolidated annual contributions contract and its
                 procurement policy.

                 During 2008, the Authority awarded three contracts to a maintenance company
                 owned by the brother of a board member. Two contracts were for building
                 maintenance services, and the other was to replace exterior doors. The executive
                 director and the board knew of the relationship but did not believe that there was a
                 conflict of interest, since the board member did not vote when the board selected
                 his brother’s company. Since the consolidated annual contributions contract and
                 the Authority’s procurement policy specifically prohibited contracting with family
                 members, the Authority was clearly in violation of the conflict-of-interest
                 requirements. The $519,390 paid to the maintenance company from HUD
                 operating funds was an ineligible expense, and the Authority must repay it from
                 non-Federal funds.

                 During 2009, the Authority entered into another conflict-of-interest contract when
                 it purchased landscaping and maintenance services from the executive director’s
                 husband. The Authority paid that individual a total of $3,935 between May 2009
                 and March 2010. It paid $575 of the charges using non-Federal funds, and the

1
  A consolidated annual contributions contract is a written contract between HUD and a public housing authority in
which the authority agrees to administer its public housing program in accordance with HUD regulations and
requirements.

                                                         6
             executive director repaid the Authority $625 from her personal funds. The
             Authority must repay the ineligible balance of $2,735 using non-Federal funds.

             Contracting with family members of the board or staff could lessen the public’s
             faith in the Authority’s contracting integrity and discourage companies from
             competing for contracts, thus weakening its ability to obtain fair and reasonable
             prices. The Authority could have requested that HUD grant a waiver of the
             requirements, but it did not do so or otherwise notify HUD of the conflicts of
             interest.


Conclusion


             The Authority spent $522,125 in HUD funds for ineligible purposes because it
             failed to follow the provisions prohibiting conflicts of interest contained in both
             its consolidated annual contributions contract and its procurement policy. This
             failure will result in the Authority’s being required to repay the funds and could
             also result in a loss of public confidence in the integrity of its operations.

Recommendations



             We recommend that the Director of HUD’s Greensboro, NC, Office of Public
             Housing

             1A. Require the Authority to reimburse its public housing operating fund $522,125
                 using non-Federal funds.

             1B. Require the Authority to provide assurance that its board and management
                 understand their roles and responsibilities regarding real or apparent conflicts
                 of interest.




                                               7
Finding 2: The Authority Lacked Adequate Controls Over Its Cash
Disbursements
The Authority lacked adequate controls over its cash disbursements. It improperly charged
expenses to its Public Housing Capital Fund program and could not support compliance with its
procurement policy for some disbursements. These deficiencies occurred because the Authority
did not have sufficient written procedures and its staff was not fully aware of some program
requirements. As a result, the Authority expended $8,881 for ineligible purposes and $10,811
for unsupported purchases.


 The Authority Lacked
 Adequate Controls Over Its
 Cash Disbursements

              We reviewed a sample of 21 checks totaling $40,548 from a universe of 732
              checks issued during 4 randomly selected months to determine whether expenses
              were eligible, reasonable, and supported. The Authority spent $19,692 for
              ineligible or unsupported costs. It did not have written procedures for employees
              to follow for some of its basic finance functions, and the employees were not
              always aware of the applicable HUD or Authority requirements.

              Ineligible Expenses
              Authority staff incorrectly charged $8,881 to the Authority’s 2008 and 2009
              Capital Fund programs’ management improvement budget line item. The
              regulations (24 CFR (Code of Federal Regulations) 968.112 (g)) allowed for
              management improvements that were development specific or Authority wide in
              nature. Examples of allowable expense items would include expenditures for
              upgrading the operation of the Authority’s developments, sustaining physical
              improvements at its developments, or correcting management deficiencies. Some
              of the Authority’s disbursements did not comply with the requirements. Ineligible
              expenditures included summer camps, field trips, sports uniforms, and back-to-
              school events for organizations that some Authority residents attended.

              We reviewed the Authority’s monthly cell phone statements and found that an
              employee used the assigned phone for personal use, resulting in improper charges
              of $364 during 1 month. The Authority repaid the improper charges from non-
              Federal funds during our onsite work. The incident occurred because the phone
              bill had not been properly reviewed.

              Unsupported Costs
              The Authority did not maintain documentation to support that it had properly
              procured six purchases totaling $10,811. It was required by its procurement
              policy to obtain a reasonable number of quotes (preferably three) for small


                                               8
             purchases exceeding $2,000. Although Authority staff members said that the
             quotes were obtained, they could not provide supporting documentation.

             Authority Fuel Cards
             We reviewed the Authority’s fuel card statements between May and September of
             2011 to determine whether the charges were allowable and properly supported.
             The Authority lacked adequate controls over fuel card purchases. It had asked its
             employees to submit initialed receipts to its finance manager and document the
             vehicle mileage after each use of the fuel card but maintained no written policy or
             procedures governing the use of the cards. While some fuel purchases appeared
             excessive, we were unable to determine whether they were reasonable because the
             employees did not consistently follow the instruction to record the vehicle
             mileage and multiple employees sometimes shared the same fuel card.


Conclusion


             Authority management had not implemented sufficient controls to ensure that
             cash disbursements were made in accordance with HUD’s requirements. As a
             result, the Authority expended $8,881 for ineligible purposes and $10,811 for
             unsupported purchases. The Authority must implement effective controls to
             ensure that future purchases are eligible, reasonable, and fully supported.

Recommendations

             We recommend that the Director of HUD’s Greensboro, NC, Office of Public
             Housing require the Authority to

             2A. Develop, implement, and enforce adequate written procedures for its cash
                 disbursement function.

             2B. Ensure that the appropriate staff members are trained regarding the
                 requirements for capital fund, procurement, and other cash disbursements.

             2C. Repay $8,030 to the U.S. Treasury using non-Federal funds for the
                 ineligible expenses charged to the closed 2008 Capital Fund grant.

             2D. Provide $851 in eligible expenses for the open 2009 Capital Fund grant or
                 reimburse the grant using non-Federal funds.

             2E. Provide documentation supporting that $10,811 in purchases charged to the
                 operating accounts were properly procured. The Authority should repay any
                 costs found to be ineligible to the appropriate public housing operating
                 account(s).

                                              9
Finding 3: The Authority Mismanaged Its ROSS Program
The Authority mismanaged its ROSS program established to help residents gain economic
sufficiency. The Authority failed to comply with the grant’s financial requirements because
management did not understand some requirements. As a result, the Authority could not assure
HUD that it used $69,823 for eligible grant expenses.


 The Authority Failed To
 Comply With the Grant
 Agreement

              HUD awarded the Authority a $250,000 3-year ROSS program grant during fiscal
              year 2004 and extended it through 2011. The intent of the program was to help
              public housing residents achieve self-sufficiency through expanded educational
              opportunities, job training, technology training and access, and other programs.
              The Authority entered into memorandums of understanding with nine
              subrecipients to provide these services.

              We reviewed the Authority’s program implementation through the sub-recipients
              and found that management had failed to comply with the grant agreement’s
              financial requirements.

              The Authority drew down grant funds through HUD’s Line of Credit Control
              System as needed. We reviewed 8 of the 32 drawdowns from the initial period
              and the 9 drawdowns (as one lump sum) from the grant extension and found that
              the Authority could not support that it used $69,823 of the $103,109 (68 percent)
              reviewed for eligible activities. Of the $69,823, the Authority drew down
              $66,900 before its sub-recipients incurred costs, a violation of the grant
              agreement. Additionally, the Authority did not maintain complete accounting
              records, such as a general ledger, showing the sources and uses of grant funds as
              required by 24 CFR 85.20(b)(2).

              Authority management failed to ensure compliance with the grant agreement
              because it was not aware of the grant’s financial requirements. The executive
              director stated that she was not aware that the Authority could draw down grant
              funds only for costs already incurred. Instead, she drew down funds to pay
              advances to the sub-recipients and did not require them to provide supporting
              receipts showing how they used the funds. She also failed to retain accounting
              records of grant transactions before 2009 when the Authority changed accounting
              systems.




                                              10
    Conclusion

                 The Authority mismanaged its ROSS program because management failed to
                 understand all of the program requirements. It must provide HUD proper support
                 showing that the funds were used for the program’s intended purpose or repay the
                 funds.

    Recommendations

                 We recommend that the Director of HUD’s Greensboro, NC, Office of Public
                 Housing

                 3A. Require the Authority to provide support showing that the $69,823 in grant
                     funds was used for eligible grant expenses. Any grant funds determined to be
                     ineligible should be repaid to the U.S. Treasury using non-Federal funds.

                 3B. Review the remaining $142,272 in grant funds to determine whether they were
                     expended in accordance with Federal regulations and grant requirements.
                     Require the Authority to repay any funds determined to be ineligible to the
                     U.S. Treasury using non-Federal funds2.




2
  The Authority expended $245,382 of the $250,000 ROSS grant. Of the $245,382 spent, we reviewed $103,109
during our audit and are asking HUD to review the remaining $142,272. The remaining $4,618 (250,000-245,382)
is being recaptured by HUD.

                                                     11
Finding 4: The Authority Failed To Maintain an Adequate Inventory
Control System
The Authority did not maintain an adequate inventory control system. Management had not
implemented written procedures for staff to follow, and the Authority’s informal system was
inadequate. As a result, the Authority could not assure HUD that funds expended for equipment
and supplies were properly used for Authority activities or that the values reflected on its
inventory records were accurate.


The Authority Lacked Inventory
Control Procedures


              The Authority did not follow HUD’s requirements for inventory. The regulations at
              24 CFR Part 85 required the Authority to maintain effective control and
              accountability over all assets and keep detailed property records.

              The Authority’s inventory controls were not fully written and did not comply with
              HUD’s requirements. Its cash management control policy required that an inventory
              system be established and maintained, but management had not developed written
              procedures for staff to follow. This deficiency caused staff to rely on unwritten
              procedures that were not consistently effective. One Authority staff member
              described the process as trial and error. In addition, the Authority did not have
              policies or procedures for conducting periodic physical inventories or making
              inventory adjustments. The building services manager claimed to have performed
              an annual physical inventory, and some staff members confirmed their input to an
              annual inventory. However, the Authority was not able to provide documentation to
              show that all Authority assets were inventoried or that inventory adjustments
              submitted by staff had been made.

              The Authority’s inventory records contained errors and omissions. Review of the
              inventory listing showed many deficiencies such as incorrect or missing equipment
              purchase or installation dates and missing bar codes, serial numbers, or both. In
              addition, equipment disposition dates were not always recorded, and the inventory
              was not updated on a timely basis for installations.

              In an attempt to locate six recently purchased refrigerators, we asked Authority staff
              to provide their locations. Staff first provided incorrect locations, and it took several
              employees about a week to provide the correct locations. The work orders provided
              to show installation of the new refrigerators were not accurate or were incomplete.
              One work order incorrectly showed that the old refrigerator had been replaced with a
              used one, not the newly purchased refrigerator. Another showed that the existing
              refrigerator had been repaired and did not mention installing a new one. None of the



                                                 12
             work orders included serial numbers for properly entering the new refrigerators into
             the inventory system so that they could be easily located.

             The inventory storage areas were often unsecured and appeared to be in disarray.
             During the review, the executive director took action to improve the physical
             security of the inventory storage areas. She also acknowledged that staff had not
             properly completed work orders or signed out supplies and promised to take
             additional measures to improve the system.


Conclusion


             The Authority must document and implement an improved inventory control
             system including procedures for conducting and documenting periodic physical
             inventory counts and adjusting the asset records. After the Authority makes these
             needed improvements, it will be able to more reliably demonstrate what assets it
             has and their correct locations and account for any assets which may have been
             lost, stolen, or disposed of due to their condition. It will also be able to better
             assure HUD that funds expended for equipment and supplies were properly used
             for Authority activities and that the values reflected on its inventory records are
             accurate.

Recommendations



             We recommend that the Director of HUD’s Greensboro, NC, Office of Public
             Housing require the Authority to

             4A. Develop and implement an improved inventory control system, including
                 procedures for conducting and documenting periodic physical inventory
                 counts and adjusting its asset records.

             4B. Perform a complete physical inventory and make the necessary accounting
                 system adjustments.




                                              13
                         SCOPE AND METHODOLOGY

Our objectives were to evaluate the merits of the complainant’s allegations and determine
whether the Authority complied with HUD’s requirements for procurement, cash disbursements,
a 2004 ROSS grant, and inventory control.

Our primary objective was to evaluate the allegations in the complaint. The complainant alleged
that (1) questionable payments had been made to individuals and vendors, (2) payments were
made to an individual before being hired, (3) staff members were using Authority vehicles and
credit cards for personal use, (4) there were many questionable fund transfers, (5) conflicts of
interest and nepotism existed, (6) there were excessive maintenance purchases, and (7) staff had
falsified work orders. Several other allegations appeared to be subjective or outside HUD’s
purview, and we did not evaluate those.

Although the complaint often lacked needed specificity, we were successful in verifying the
existence of questionable payments (findings 1, 2, and 3) and that conflicts of interest existed
(finding 1). However, we determined that the alleged improper payment made to an individual
before being hired was false (non-Federal funds were used). We were also unable to confirm
that staff members were using Authority vehicles or credit cards for personal use, whether
maintenance purchases were excessive, or whether staff had falsified work orders. We did audit
work in all of these areas, but the allegations were not specific, and our samples did not show
anything improper. However, the internal control weaknesses identified throughout this report
could result in such deficiencies, and our sample results only pertained to the items sampled and
not the entire universe of transactions. As a result of our work on the complaint, we elected to
expand our objectives to determine whether procurements, cash disbursements, the 2004 Ross
grant, and inventory control were being accomplished in accordance with HUD’s requirements.

To accomplish our objectives, we reviewed

       Financial management regulations at 24 CFR 85.20, HUD’s applicable annual
       contributions contracts with the Authority, procurement regulations at 24 CFR 85.36,
       monitoring regulations at 24 CFR 85.40, and HUD’s Greensboro, NC, Office of Public
       Housing files pertaining to the Authority.

       The Authority’s policies and procurement manuals, 12 procurement actions, maintenance
       logs, fund transfers, ROSS grant draw requests, Authority credit card and bank statements,
       the two latest Authority audits, and the Authority’s organizational chart.

We interviewed the complainant, Authority employees, and HUD’s Greensboro, NC, public
housing staff involved with oversight of the Authority’s programs. We selected several non-
statistical samples as described below. The results from these samples pertain only to the items
sampled and were not projected to the universe as a whole.



                                               14
We reviewed 12 procurement actions valued at $1.57 million out of a universe of 45
procurements valued at $2.1 million executed during our audit period. We began with a non-
statistical sample of 5 procurement actions from a universe of 39 occurring during the audit
period. We selected these five contracts to ensure that the sample included small purchases, a
purchase that was approved by the board, and a purchase from each year of our audit period.
Seven of the 21 checks we selected for disbursement testing (described below) represented
purchases covered by the Authority’s procurement policy. We added these 7 to the original
sample of 5 to arrive at the sample of 12 procurement actions. We reviewed all 12 for
compliance with the Authority’s procurement policy and HUD’s requirements.

We selected a non-statistical sample of 21 checks totaling $40,548 out of a universe of 732
checks totaling $682,616 to determine whether costs were eligible, reasonable, and supported.
We selected 4 months of disbursements for inclusion in our universe, which ensured that each
fiscal year of our audit period was represented. We selected 12 checks totaling $35,610 that
were over $1,500 and did not appear to be a part of the normal course of Authority business.
The remaining nine checks totaling $4,938 were selected based on the payee or the amount paid
(payee with same last name as Authority employees or purchases with unusually high dollar
amounts).

The Authority completed 41 Line of Credit Control System drawdowns totaling $245,382 for its
2004 ROSS grant: 32 drawdowns from the initial 36-month grant and 9 drawdowns from a 6-
month extension. We selected a non-statistical random sample of 8 (25 percent of the universe)
drawdowns totaling $50,209 out of a universe of 32 drawdowns totaling $192,482 to determine
whether the drawdowns had adequate support and were made in accordance with the grant
agreement. Additionally, the drawdowns totaling $52,900 completed during the extension were
reviewed as a lump sum and counted as sample item number 9.

We reviewed 100 percent of the Authority’s gasoline card statements from May through
September 2011 to determine whether the charges were allowable and properly supported.

We performed our onsite work from August 24, 2011, through January 26, 2012, at the Authority’s
office at 841 South Center Street, Hickory, NC. The audit covered the period January 2009
through July 2011 and was extended as necessary.

We tested all electronic data as we performed our audit steps. We did not rely on any supplied
data without tracing it to source documentation.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                  Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

                  Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and obligations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 16
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                The Authority violated conflict-of-interest requirements (see finding 1).
                The Authority lacked adequate controls over its cash disbursements (see
                finding 2).
                The Authority mismanaged its ROSS program (see finding 3).
                The Authority failed to maintain an adequate inventory control system (see
                finding 4).




                                              17
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation           Ineligible 1/      Unsupported
                         number                                        2/
                             1A               $522,125
                             2C                  8,030
                             2D                    851
                              2E                                   $10,811
                             3A               _______               69,823

                               Total          $531,006             $80,634

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         19
20
Comment 1




            21
22
Comment 5




            23
24
Comment 5




Comment 2




Comment 3




            25
Comment 4




            26
Comment 5




            27
                         OIG Evaluation of Auditee Comments

Comment 1   The conflicts of interest which resulted in $522,125 of ineligible costs were
            serious violations of both the Authority’s annual contribution contract and
            procurement policy. As such, we believe that repayment from non-Federal funds
            is the appropriate action. The language in the CFR states that HUD may direct
            the PHA to take one or more of the corrective actions in 24 CFR 968.335 (e).
            Note that the sixth corrective action is to reimburse, from non-federal sources, one
            or more program accounts for any amounts improperly expended.

Comment 2   Although we agree that 24 CFR 968.221 (g) (2) (i) states that the Authority can
            spend management improvement on resident programs and services, the Public
            and Indian Housing Comprehensive Improvement Assistance Handbook 7485.1
            contains the complete definition for eligible expenditures. The Handbook states
            that eligible costs include hiring of additional staff to coordinate services as drug
            education, resident training, assistance to a resident management corporation, and
            economic development. The costs that we reported were ineligible did not fall
            within those parameters.

Comment 3   We did not receive the documentation the Authority promised to provide in order
            to show that $10,811 in purchases charged to the operating accounts were properly
            procured (Recommendation 2E). The Authority should provide the documentation
            to the HUD Greensboro field office in order to clear the recommendation.

Comment 4   The documentation provided by the Authority was not sufficient to support that
            $69,823 in grant funds was used for eligible grant expenses (Recommendation 3A).
            The Authority should provide complete documentation to the HUD Greensboro
            field office in order to clear the recommendation.

Comment 5   The Authority stated that it agrees with the findings and has taken or plans to take
            various actions to address deficiencies. Notably, the executive director and board
            of commissioners met with outside counsel to gain a full understanding of the
            conflict of interest requirements. It also plans supplemental ethics training for all
            Authority staff. Authority staff attended procurement training at the HUD
            Greensboro office and has additional financial management training scheduled. It
            employed a contractor to develop a new inventory control system and plans to
            complete a physical inventory and make the necessary accounting adjustments by
            July 31, 2012. We commend the Authority for timely addressing deficiencies
            cited in this report.




                                             28
